CERTIFICATE OF WORD COUNT
NO. TBD
Leon Oscar Ramirez, Jr. Et Al.,
Petitioner(s),
v.
ConocoPhillips Company, Et Al.,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the LEON OSCAR RAMIREZ,
JR. ET AL. PETITION FOR WRIT OF CERTIORARI contains 8652 words, including the parts of the brief
that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
August 26, 2020

SCP Tracking: Alarcon-1302 Washington Street-Cover White

